No. 19In the

Supreme Court of the United States
KALEIDA HEALTH,
Petitioner,
v.
KATHLEEN BIONDO,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI
John P. Danieu
Counsel of Record
Roach, Brown, Mccarthy
& Gruber P.C.
1920 Liberty Building
424 Main Street
Buffalo, New York 14202
(716) 852-0400
jdanieu@roachbrown.com
Counsel for Petitioner
292524

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
A claimant may assert a claim for monetary damages
under the Rehabilitation Act if there was intentional
discrimination. Barnes v. Gorman, 536 U.S. 181 (2002).
However, neither this Court nor Congress have set
clear parameters for claiming such damages. Over the
years Circuit Courts adopted varying standards. Both
the Second and Eleventh Circuits have interpreted this
Court’s standard in Gebser v. Lago Vista Independent
School District to apply to the Rehabilitation Act.
However, as of this year and specifically stemming from
this case, the Second and Eleventh Circuit split an already
fragmented Rehabilitation Act standard regarding the
definition of “official.”
The questions presented are:
1.

W hether the Gebser standard, requir ing
an official decision from an entity to impose
monetary damages, applies to the Rehabilitation
Act.

2.

Whether the Second Circuit erroneously defined
“official” under that standard.

ii
PARTIES TO THE PROCEEDING
Petitioner is Kaleida Health, a defendant in the district
court and defendant-respondent in the court of appeals.
Respondent is Kathleen Biondo, a plaintiff in the
district court and a plaintiff-appellee in the court of
appeals.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, Petitioner states
as follows:
Petitioner Kaleida Health has no parent corporation
and no publicly held company owns 10 percent or more of
its stock.

iv
RELATED PROCEEDINGS
The following proceedings are directly related to this
Petition:
Kathleen Biondo v. Kaleida Health d/b/a
Buffalo General Medical Center, No. 15-cv-362,
United States District Court for the Western
District of New York. Judgment entered April
10, 2018.
Kathleen Biondo v. Kaleida Health d/b/a/
Buffalo General Medical Center, No. 18-1375,
United States Court of Appeals for the Second
Circuit. Judgment entered August 19, 2019.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT  . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
A. Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 3
B. Procedural History  . . . . . . . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION . . . . . 7

vi
Table of Contents
Page
I.

Circuit Court Split Exists as to the
Requisite Standard for Compensatory
Damages under the Rehabilitation Act . . . . . . . . 7

II. The Circuit Split Between the Second
C i r c u i t a n d El e ve nt h C i r c u i t ’s
I nt e r pr et at ion of G ebs e r I mp o s e s
Contrasting Definitions of “Official” . . . . . . . . . 10
III. The Second Circuit’s Standard is Contrary
to the Plain Meaning of Gebser  . . . . . . . . . . . . . 14
IV. T h i s Ca se i s t he Idea l Veh icle for
Deciding the Questions Presented  . . . . . . . . . .  17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
AUGUST 19, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
Appendix b — decision and order
of the united states district
court for the western district
	of new york, filed april 10, 2018  . . . . . . 18a
Appendix C — United States Code
A nnotated, Title 2 9, L abor 2 9,
U.S.C.A. § 705 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35a
Appendix d — relevant statutory
	provisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Barnes v. Gorman,
536 U.S. 181 (2002) . . . . . . . . . . . . . . . . . . . . . . . 1, 8, 10
Bartlett v. New York State Bd. of Law Exam’rs,
156 F.3d 321 (2d Cir. 1998) . . . . . . . . . . . . . . . . . . . . . . 9
Doe v. Sch. Bd. of Broward Cty.,
604 F.3d 1248 (11th Cir. 2010) . . . . . . . . . . . . . . . . . . 12
Durrell v. Lower Merion Sch. Dist.,
729 F.3d 248 (3d Cir. 2013) . . . . . . . . . . . . . . . . . . 2, 8, 9
Duvall v. Cty. of Kitsap,
260 F.3d 1124 (9th Cir. 2001) . . . . . . . . . . . . . . . . . . 8, 9
Gebser v. Lago Vista Indep. Sch. Dist.,
524 U.S. 274 (1998)  . . . . . . . . . . . . . . . . . . . . . . . passim
Havens v. Colorado Dep’t of Corrs.,
897 F.3d 1250 (10th Cir. 2018) . . . . . . . . . . . . . . . . . 8, 9
Lacy v. Cook Cty.,
897 F.3d 847 (7th Cir. 2018) . . . . . . . . . . . . . . . . . . . 8, 9
Liese v. Indian River County Hosp. Dist.,
701 F.3d 334 (11th Cir. 2012)  . . . . . . . . . . . . . . . passim
Loeffler v. Staten Island Univ. Hosp.,
582 F.3d 268 (2d Cir. 2009) . . . . . . . . . . . . . . . . . passim

ix
Cited Authorities
Page
Meagley v. City of Little Rock,
639 F.3d 384 (8th Cir. 2011) . . . . . . . . . . . . . . . . . . . 8, 9
Miraglia v. Bd. of Supervisors,
901 F.3d 565 (5th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . 8
Nieves-Marquez v. Puerto Rico,
353 F.3d 108 (1st Cir. 2003)  . . . . . . . . . . . . . . . . . . . . . 8
Pandazides v. Virginia Bd. of Educ.,
13 F.3d 823 (4th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . 8
Reynolds v. Guiliani,
506 F.3d 183 (2d Cir. 2007) . . . . . . . . . . . . . . . . . . . . . 11
Santiago v. Puerto Rico,
655 F.3d 61 (1st Cir. 2011) . . . . . . . . . . . . . . . . . . . . . .  17
Silberman v. Miami Dade Transit,
927 F.3d 1123 (11th Cir. 2019)  . . . . . . . . . . . .  12, 16, 17
Sunderland v. Bethseda Hosp., Inc.,
686 F. App’x 807 (11th Cir. 2017) . . . . . . . . . . . . . . . . 12
STATUTES
20 U.S.C. § 1682  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

x
Cited Authorities
Page
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1367  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
29 U.S.C. § 794  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
29 U.S.C. § 794a  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 2000d-1  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
RULES
Rehabilitation Act § 504  . . . . . . . . . . . . . . . . . . . . . . . . . 7,8

1
Petitioner Kaleida Health respectfully petitions for
a writ of certiorari to review the judgment of the United
States Court of Appeals for the Second Circuit.
OPINIONS BELOW
The Second Circuit’s opinion is reported at 935 F.3d
68 and reproduced at 1a-17a. The district court’s opinion
is unreported at 2018 WL 1726533 and reproduced at
18a-34a.
JURISDICTION
The Second Circuit issued its opinion on August
19, 2019. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISIONS INVOLVED
The relevant portions of the Rehabilitation Act, 29
U.S.C. §§ 794-794a, are reproduced at 41a-45a.
INTRODUCTION
Over 17 years ago, this Court decided that a claimant
may assert a claim for monetary damages under
Rehabilitation Act for intentional discrimination. Barnes
v. Gorman, 536 U.S. 181, 187 (2002). However, neither
this Court nor Congress have set clear parameters for
claiming such damages. See id. Without a framework
from a higher authority, circuit courts have set their own
parameters and created circuit splits for anything from
the discriminatory standard, to who within an entity must
be aware of the violation for compensatory damages to

2
apply. Durrell v. Lower Merion Sch. Dist., 729 F.3d 248,
262-63 (3d Cir. 2013).
Both the Second and Eleventh Circuits have
interpreted this Court’s standard in Gebser v. Lago Vista
Independent School District to apply to the Rehabilitation
Act. Liese v. Indian River Cty. Hosp. Dist., 701 F.3d 334,
349 (11th Cir. 2012); Loeffler v. Staten Island Univ. Hosp.,
582 F.3d 268, 275 (2d Cir. 2009). However, as of this year
and specifically stemming from this case, the Second and
Eleventh Circuit split an already fragmented standard.
While both adopt that an “official” may subject an entity
to monetary damages, in this case, the Second Circuit
expressly rejected the Eleventh Circuit’s definition of
“official.” App. 15a. Instead, the Second Circuit adopted
a definition so broad that it encompasses every employee,
thereby essentially eviscerating the requirement that the
decision be by an official.
Based on the reasons stated below, Kaleida Health
urges this Court to establish uniform parameters for
compensatory damages and clarify notice requirements
under the Rehabilitation Act. Specifically, it asks this
Court whether the Gebser standard, requiring an official
decision from an entity to impose monetary damages,
applies to the Rehabilitation Act. Additionally, it asks
whether the Second Circuit erroneously defined “official”
under that standard.

3
STATEMENT OF THE CASE
A. Factual Background
This action centers around Respondent Kathleen
Biondo’s September 2014 admission to Buffalo General
Medical Center, a facility of Petitioner Kaleida Health. SA
40.1 Ms. Biondo, who was born deaf, presented to Buffalo
General Medical Center after she fainted and experienced
dizziness associated chest pain. SA 68.
For the majority of Ms. Biondo’s medical care and
treatment prior to the hospital admission at issue, she
communicated through both hand written notes and her
husband, Andrew Biondo. SA 105 (60:12-19), SA 107 (65:19), SA 111 (88:7-23), SA 151.
Ms. Biondo’s attending physician for the entirety of her
hospital stay was Dr. Octavia Balan, an internal medicine
doctor with Buffalo Medical Group. Coincidentally,
Buffalo Medical Group was also Ms. Biondo’s primary
care provider at that time. See SA 153. Just as Ms. Biondo
communicated with those at Buffalo Medical Group on
numerous office visits, she communicated with Dr. Balan
using both her husband as an interpreter and by written
notes. SA 60, SA 75, SA 111 (88:7-23), SA 148-153.
It is undisputed that Ms. Biondo was not provided the
services of an ALS interpreter during her September
2014 admission to Buffalo General Medical Center.
1. “A” refers to the Appendix submitted to the Second
Circuit. “SA” refers to the Supplemental Appendix submitted to
the Second Circuit. “App” refers to the Appendix of this Petition.

4
However, neither Ms. Biondo nor Mr. Biondo ever advised
the hospital staff that note writing was insufficient for
her to understand them. SA 126 (225:3-11), SA 142-143
(138:21–139:5). Ms. Biondo admitted that she is not sure
whether she ever indicated to anyone at the hospital
that having her husband translate was insufficient mode
of communication. SA 127 (229:4-9). Furthermore, Ms.
Biondo never testified she requested an interpreter from
her doctors or a supervisor. Rather, she requested an
interpreter only from hospital staff, including unnamed
nurses. A 61-62 ¶¶ 36-41, A 63 ¶ 51, A 213 (120:15-23), A
214 (121:5-12), A 216 (123:19-23), A 232 (205:17-23).
Kaleida Health maintains a written policy regarding
the use of interpreters, translators and TTY devices.
Pursuant to this policy, an interpreter must be provided
when the patient is unable to speak, read or write the
English language at a level that permits him or her to
interact effectively with health care providers to ensure
effective communication. SA 163-167.
B. Procedural History
Ms. Biondo commenced this action against Kaleida
Health on April 24, 2015 when she filed a complaint
in the District Court for the Western District of New
York. Ms. Biondo alleges she was discriminated against
by Kaleida Health based on her disability. A 16-17 at
¶4. She seeks compensatory damages pursuant to the
Rehabilitation Act, New York Human Rights Law, and
the City of Buffalo Antidiscrimination Law; and costs
and attorneys’ fees pursuant to the Americans with
Disabilities Act, the Rehabilitation Act, and the City of
Buffalo Antidiscrimination Law. A 31-32. The District

5
Court had jurisdiction over the federal law claims
pursuant to 28 U.S.C. § 1331 and state law claims pursuant
to 28 U.S.C. § 1367. Ms. Biondo abandoned her injunctive
relief claims on appeal.
Kaleida Health does not dispute that it is subject to
the non-discrimination provisions of the foregoing statutes
and regulations, or that Ms. Biondo is a qualified person
with a disability. However, it disputes it violated the terms
or conditions of the same in its dealings with her during
the hospital admission which is the subject of her action.
In specific regard to this Petition, Kaleida Health disputes
that it can be held liable for monetary damages under the
Rehabilitation Act.
Following the close of discovery, Kaleida Health
moved for summary judgment and the dismissal of Ms.
Biondo’s Complaint. SA at 7-12, SA 14-26. Relative to
Ms. Biondo’s claim for monetary damages under the
Rehabilitation Act, the district court found that both
Mr. and Ms. Biondo testified they asked a few unnamed
nurses for an interpreter, but provided no evidence that
these nurses were officials. App. 30a. According to the
court, the only arguable “policymaker” or “official” with
whom Ms. Biondo had contact with while a patient at the
hospital was Nurse Manager Jennifer DiPasquale. Id.
However, the court found that Ms. Biondo specifically told
DiPasquale that it was acceptable to communicate through
written notes. Id. Additionally, Ms. Biondo’s meical
records stated her preferred method of communication
was written English and did not indicate she requested
an interpreter. Id.

6
The court determined that Kaleida Health’s actions
were, at most, negligence or bureaucratic inaction. Id. at
31a. There was no evidence of an official’s knowing failure
to provide Ms. Biondo with a necessary auxiliary aid,
and therefore, Kaleida Health could not be held liable for
monetary damages under the Rehabilitation Act. Id. The
district court granted Kaleida’s motion as to Ms. Biondo’s
federal claims, and declined to exercise supplemental
jurisdiction over her state and local law claims. Id. at 34a.
Ms. Biondo appealed the district court’s decision
to dismiss her monetary damages claim under the
Rehabilitation Act. Id. at 2a. On August 19, 2019, the
Second Circuit vacated the district court’s order granting
summary judgment under the Rehabilitation Act,
concluding that there are issues of material fact. Id. at 3a.
In specific regard to the availability of monetary
damages, the Second Circuit found that the record
supported an inference that hospital staff had actual
knowledge of the potential discrimination and contained
evidence doctors and nurses had the authority to call for
an interpreter. Id. at 13a-14a. Therefore, according to the
Second Circuit, there was an issue of fact whether these
staff members could be considered officials and meet
the requisite standard for monetary damages under the
Rehabilitation Act. Id. at 3a.
In reaching its decision, the Second Circuit explored
clarifying the definition of “official” or “policymaker” in
the context of the Rehabilitation Act. See Id. at 15a-16a.
Specifically, the Second Circuit declined to adopt the
Eleventh Circuit’s definition of “official” as someone who
enjoys substantial supervisory authority, and wrote that

7
such a definition is “unspecific, and unhelpful in the setting
of a large, ramified institution . . . .” Id. at 15a.
The Second Circuit decided that for future cases
involving the Rehabilitation Act, determining who is a
hospital “official” or “policymaker” will vary with the
decision to be made and the individual with discretion to
decide. Id. at 16a. However, the Second Circuit provided
no additional guidance on how to apply this broad
standard. Additionally, the Second Circuit explained in a
footnote that a policymaker, who instituted a policy that
does not empower staff members to cure violations of
the Rehabilitation Act, could also subject the hospital to
monetary damages. Id. The policymaker need not interact
with the patient to impose liability on a hospital. Id.
The Second Circuit did not address the claims under
the Americans with Disabilities Act, New York Human
Rights Law, and City of Buffalo Antidiscrimination Law.
Kaleida Health does not concede liability under these
authorities, but does not submit an argument on Petition
to this Court, as the question presented is in regard to
the Rehabilitation Act.
REASONS FOR GRANTING THE PETITION
I.

Circuit Court Split Exists as to the Requisite
Standard for Compensatory Damages under the
Rehabilitation Act

Section 504 of the Rehabilitation Act provides that
no disabled individual “shall, solely by reason of her or
his disability, be excluded from the participation in, be
denied the benefits of, or be subjected to discrimination

8
under any program or activity receiving Federal financial
assistance.” Id. at 41a.
To establish a prima facie showing of violation of
the Rehabilitation Act, a plaintiff must show that she is
a disabled person as defined in the Rehabilitation Act;
otherwise qualified to participate in the offered activity
or to enjoy its benefits; was excluded from participation or
enjoyment solely because of her disability; and the entity
that denied participation or enjoyment is a program that
receives federal financial assistance. Loeffler, 582 F.3d
at 275.
This Court and the majority of circuit courts have
ruled that a claimant who brings a cause of action
under Section 504 of the Rehabilitation Act may seek
compensatory damages if the individual establishes
intentional discrimination. Barnes, 536 U.S. at 187;
Miraglia v. Bd. of Supervisors, 901 F.3d 565, 574 (5th
Cir. 2018); Lacy v. Cook Cty., 897 F.3d 847, 862-63 (7th
Cir. 2018); Havens v. Colorado Dep’t of Corrs., 897 F.3d
1250, 1263 (10th Cir. 2018); Durrell, 729 F.3d 248, 263 (3d
Cir. 2013); Liese, 701 F.3d at 342; Meagley v. City of Little
Rock, 639 F.3d 384, 389 (8th Cir. 2011); Loeffler, 582 F.3d
at 275; Nieves-Marquez v. Puerto Rico, 353 F.3d 108, 126
(1st Cir. 2003); Duvall v. Cty. of Kitsap, 260 F.3d 1124, 1138
(9th Cir. 2001); Pandazides v. Virginia Bd. Of Educ., 13
F.3d 823, 830 (4th Cir. 1994).
However, circuit courts are split on the requisite
proof to establish intentional discrimination under the
Rehabilitation Act. At least one circuit court has implied
that a claimant must prove discriminatory animus.
Nieves-Marquez, 353 F.3d at 126-27. Yet, the majority

9
of circuit courts require proof of deliberate indifference.
E.g., Havens, 897 F.3d at 1263-264. Within the circuit
courts that a deliberate indifference standard, proof of
intentional discrimination does not require a showing of
personal animosity or ill will. E.g., Loeffler, 582 F.3d at 275
(quoting Bartlett v. New York State Bd. of Law Exam’rs,
156 F.3d 321, 331 (2d Cir. 1998), vacated on other grounds,
527 U.S. 1031 (1999)). Intentional discrimination may be
inferred when a defendant was deliberately indifferent
to the strong or substantial likelihood that a violation of
federally protected rights will result. E.g., Havens, 897
F.3d at 1264.
Circuit courts that have adopted the deliberate
indifference standard are split on what qualifies as
deliberate indifference and who must be deliberately
indifferent for compensatory damages to be available.
Some circuits require that at the time of the incident, the
defendant have knowledge that a federally protected right
is likely to be violated and deliberately fail to act despite
such knowledge. Lacy, 897 F.3d at 862; Durrell, 729 F.3d
at 265; Meagley, 639 F.3d at 389; Duvall, 260 F.3d at 1139.
Other circuits provide who within a defendant entity must
have knowledge and fail to act. Liese, 701 F.3d at 349;
Loeffler, 582 F.3d at 276; see Havens, 897 F.3d at 1266.
Put simply, there is no consistent standard for intentional
discrimination under the Rehabilitation Act.
Kaleida Health submits that the appropriate standard
derives from Gebser v. Lago Vista Independent School
District. 524 U.S. at 290-91. Gebser is referenced multiple
times in Barnes, and has been interpreted by both the
Second and Eleventh Circuit as the appropriate foundation
to determine monetary damages under the Rehabilitation

10
Act. Barnes, 536 U.S. at 186, 187; Liese, 701 F.3d at 349;
Loeffler, 582 F.3d at 275-76.
Gebser is an interpretation of § 1682 of Title IX of the
Education Amendments of 1972, highly synonymous to
the Rehabilitation Act. Section 1682 provides that federal
funding should not be disturbed due to a violation of the
statute until the “appropriate person” is made aware of
the violation and is given an opportunity to correct noncompliance. 20 U.S.C. § 1682. In passing the Rehabilitation
Act, a year after Title IX, Congress incorporated the
remedies, procedures, and rights set forth in Title IV
of the Civil Rights Act of 1964. App. 41a. Section 1682
of Title IX and Section 2000d-1 of Title IV are identical,
except for a reference to each respective law. Compare 20
U.S.C. § 1682 with 42 U.S.C. § 2000d-1. Therefore, it is
appropriate for the Court’s interpretation of this section of
Title IX in Gebser to apply to Section IV of the Civil Rights
Act and by reference to such, the Rehabilitation Act.
For the reasons set forth below, the Eleventh Circuit’s
interpretation of Gebser should be adopted by this Court,
as it is the most consistent with the Gebser standard. See
Liese, 701 F.3d at 349-50.
II. The Circuit Split Between the Second Circuit and
Eleventh Circuit’s Interpretation of Gebser Imposes
Contrasting Definitions of “Official”
To explain “deliberate indifference,” the Second
Circuit applied this Court’s interpretation of deliberate
indifference in Gebser v. Lago Vista Independent School
District. Loeffler, 582 F.3d at 275-76 (citing Gebser, 524
U.S. at 290-91). While the Second Circuit qualified such

11
an application in Loeffler, it expressly applied the Gebser
definition to the Rehabilitation Act in this case. App. 11a.
Gebser provides that the appropriate person to rectify
discrimination is “an official who at a minimum [1] has
authority to address the alleged discrimination and to
institute corrective measures on the recipient’s behalf [2]
has actual knowledge of discrimination in the recipient’s
programs and [3] fails adequately to respond.” Gebser,
524 U.S. at 290. Additionally, the Second Circuit requires
indifference that reflects a deliberate choice, not just
negligence or bureaucratic inaction. Loeffler, 582 F.3d at
276 (quoting Reynolds v. Guiliani, 506 F.3d 183, 193 (2d
Cir. 2007)).
The Eleventh Circuit has also adopted the Gebser
standard for monetary claims under the Rehabilitation
Act. Liese, 701 F.3d at 349. However, unlike the Second
Circuit, the Eleventh Circuit explained the meaning of
“official.” It wrote, “Gebser did not define an official to
be a person who has knowledge of a violation and the
authority to correct it; rather, Gebser stated that, for
liability to attach, there must be (1) ‘an official’ who, (2) ‘at a
minimum,’ has the requisite knowledge and authority.” Id.
(quoting Gebser, 524 U.S. at 290). This two-step inquiry,
first into who is an official, then second, if he or she has
knowledge and authority to correct discrimination, is
contrary to the Second Circuit’s interpretation of Gebser.
The Second Circuit determines who is an official based on
his or her knowledge and authority. See App. 11a.
The Eleventh Circuit further elaborated that based
on the natural reading of Gebser, an official is one “whose
actions can fairly be said to represent the action of the
organization” and who “enjoys substantial supervisory

12
authority within an organization’s chain of command
so that, when dealing with the complainant, the official
had complete discretion at a ‘key decision point’ in the
administrative process.” Liese, 701 F.3d at 350 (citing
Doe v. School Bd. of Broward Cty., 604 F.3d 1248, 125657 (11th Cir. 2010); see also Silberman v. Miami Dade
Transit, 927 F.3d 1123, 1135 (11th Cir. 2019). Put in a more
systematic formula to compare the Second and Eleventh
Circuit interpretations of Gebser:
● Second Circuit
○ Knowledge + authority = official
○ Official = monetary damages
● Eleventh Circuit
○ Substantial supervisory authority = official
○ Official + knowledge + authority = monetary
damages
Compare App. 12a with Liese, 701 F.3d at 349-50.
In the case below, the Second Circuit explicitly refused
to adopt the Eleventh Circuit’s definition of “official” as
someone who enjoys “substantial supervisory authority”,
writing that such a definition is “unspecific, and unhelpful
in the setting of a large, ramified institution where many
patients and visitors do not interact with a supervisor, or
know how to identify one, much less how to find one.” App.
15a. In rejecting the definition, the Second Circuit cited
Sunderland v. Bethseda Hospital, Inc., an unreported
decision that held nurses could exercise supervisory
authority. Sunderland v. Bethseda Hosp., Inc., 686 F.
App’x 807, 816 (11th Cir. 2017). However, in its recent
Silberman decision, the Eleventh Circuit clarified the
authority of nurses, reiterating the standard from Liese
that nurses are not officials. Silberman, 927 F.3d at 1135.

13
Additionally, as opposed to the Eleventh Circuit’s
definition that an official is someone who “ha[s] complete
discretion at a ‘key point’ in the administrative process”,
the Second Circuit decided that an official is “someone who
has some discretion at a key point in the administrative
process.” Compare App. 16a with Liese, 701 F.3d at 350
(emphasis added).
The Second Circuit’s analysis does not provide
clarification on this issue, as anyone in an entity has some
discretion at a key point in the administrative process. For
example, a maintenance person could have discretion to
decide the order in which to respond to complaints. If the
maintenance person decides to fix a broken light before a
detached shower handrail and someone falls in the shower
because they do not have a handrail, the maintenance
person could be considered an official. Practically, it is
hard to believe that this maintenance person should be
considered an official because they decided to repair the
light instead of the handrail.
The Second Circuit also opined that “given the
hierarchy of a hospital, the key decision point will
vary with the decision to be made, and the official or
policymaker with discretion to make the decision will vary
accordingly.” App. 16a. However, this broad language does
not augment the Second Circuit’s original interpretation
of the Gebser standard. It simply provides the practical
result of applying its interpretation: there is no way to
anticipate who will subject a hospital to liability, as it could
be anyone in the hospital, given the circumstance.
After its decision in this case, the definition of an
official in the Second Circuit is someone who has the

14
authority to correct the alleged discrimination, has actual
knowledge of the discrimination, and fails to adequately
to respond. Id. at 12a (providing that the individual must
simply be “someone at the hospital.”). This individual
must also have “some discretion at a key point in the
administrative process” such that their “indifference
reflect[s] a ‘deliberate choice among various alternatives”
and [is] not inferred from mere ‘negligent or bureaucratic
inaction.” Id. (quoting Loeffler, 582 F.3d at 276).
III. The Second Circuit’s Standard is Contrary to the
Plain Meaning of Gebser
In the Gebser opinion, this Court wrote that its central
concern is that the “receiving entity of federal funds has
notice that it will be liable for a monetary award.” Gesber,
524 U.S. at 287. Therefore, the decision to not remedy
the violation must be an official one by the receiving
entity. Otherwise, the receiving entity would be liable for
damages not for its own official decision, but instead for
its employees’ independent actions. Id. at 290-91.
Under the plain language of Gebser, “an appropriate
person” needs notice. Id. at 290. The “‘appropriate person’
is, at a minimum, an official of the recipient entity with
authority to take corrective action.” Id. Therefore, the
individual must firstly be an official, then secondly,
have authority to take corrective action. Contra Second
Circuit Decision. To read these requirements otherwise
would impose monetary liability on a recipient entity for
the actions of anyone who has the ability to correct the
discrimination.

15
For example, hospitals frequently extend privileges
to private physicians to use the hospital’s facilities. These
physicians must follow the policies and procedures of
the hospital, including those established pursuant to the
Rehabilitation Act. However, privileged physicians are
not employees of the hospital.
Under the Second Circuit’s definition of “officer,” if a
privileged physician had knowledge of discrimination, had
the ability to correct it, and failed to do so, the privileged
physician would be considered an officer of the hospital.
See App. 12a. The hospital could then be held liable for
monetary damages.
A strict reading of Gebser, or alternatively, of the
Eleventh Circuit’s standard, would not impose liability
in the same scenario. Gebser provides that a receiving
entity should be liable only for its official decisions, not for
“its employees’ independent actions.” Gebser, 524 U.S. at
290-91. A privileged physician is not even an employee,
and therefore, his or her actions should not be considered
official or impose monetary liability onto an entity. To
hold otherwise would be more egregious imposition of
monetary liability than for an employee’s independent
actions. Under the Eleventh Circuit’s standard, liability
would not be imposed, as a privileged physician is not
someone who “enjoys substantial supervisory authority
within an organization’s chain of command.” Liese, 701
F.3d at 350. A privileged physician is not within the chain
of command—he is not even an employee.
Another example is a nurse. Under the Second
Circuit’s definition of official, a nurse generally would
qualify if she had knowledge of the discrimination, had

16
the ability to correct it, and failed to do so. See App.
12a. Under the Gebser standard or the Eleventh Circuit
standard, a nurse would not qualify as an official. Under
Gebser, nurse is an employee of the hospital, whose actions
could be independent of the hospital and insufficient to
give the hospital notice of a potential suit. See Gebser, 524
U.S. at 290-91. Within the Eleventh Circuit, a nurse is not
an official unless he or she has substantial supervisory
authority such that he or she enjoys complete discretion
over whether to provide an accommodation. Silberman,
927 F.3d at 1135. As the examples of privileged physicians
and nurses demonstrate, the Second Circuit’s definition
of “official” is “so broad as to encompass ‘every single
employee’ who is in a position to grant or deny an
individual.” Silberman, 927 F.3d at 1136 (quoting Liese,
701 F.3d at 349). Therefore, the requirement under
Gebser that there be a decision by an official is essentially
eviscerated by the Second Circuit’s decision. Id.
Furthermore, the Second Circuit’s footnote regarding
policymakers imposes absolute monetary liability on
a recipient entity. The footnote provides that if the
policymaker, in drafting the policy, does not provide
authority to correct the discrimination, the entity may
be held monetarily liable. App. 16a. An entity cannot
avoid liability by withholding the power to correct
discrimination. Id. However, the Second Circuit also
imposes monetary liability if an individual has the
knowledge and authority to remedy the discrimination,
and failed to do so. Loeffler, 582 F.3d at 276. Therefore,
there is no path to avoid liability. An entity will either
be held liable for (1) a policymaker’s failure to provide
authority to correct the discrimination, as an entity
cannot avoid liability by withholding authority, or (2)

17
the individual’s failure to use it, as the Second Circuit’s
definition encompasses every employee who has authority
to correct discrimination.
Based on the forgoing, the Second Circuit has
essentially adopted a vicarious liability standard,
changing an award of compensatory damages from an
exception to the rule. See Silberman, 927 F.3d at 1136;
Santiago v. Puerto Rico, 655 F.3d 61, 75 (1st Cir. 2011)
(“Title IX does not sweep so broadly as to permit a
suit for harm-inducing conduct that was not brought
to the attention of someone with authority to stop it.”).
To eviscerate the official decision requirement imposes
liability unintended by Congress. Gebser, 524 U.S. at 287.
“It does not appear that Congress contemplated unlimited
recovery in damages against a funding recipient where the
recipient is unaware of discrimination in its programs.”
Id. If the Second Circuit definition stands, entities can and
will be held liable to private litigants over and above their
federal funding. Therefore, there is a compelling need to
strike down the Second Circuit’s erroneous interpretation
of Gebser.
IV. This Case is the Ideal Vehicle for Deciding the
Questions Presented
This case is an optimal vehicle for deciding the
questions presented. The circuit courts set up competing
constructions of the same statute, and further circuit
splitting is inevitable. Considering the recent decisions
from the Second and Eleventh Circuits that differ in the
definition of “official” and the Second Circuit’s erroneous
interpretation of Gebser, this Petition is submitted at the
ideal time. App. 1a-17a; Silberman, 927 F.3d 1123.

18
Kaleida Health would have prevailed below under the
established law in the Eleventh Circuit; instead summary
judgment was denied because the case arose in the Second
Circuit. Ms. Biondo never testified she requested an
interpreter from her doctors or a supervisor, but rather
only from hospital staff, including unnamed nurses. App.
30a. As discussed above, requests to and denial by nurses
are insufficient under the Eleventh Circuit and Gebser
standard to be construed as actions by an “official.”
Therefore, Kaleida Health urges this Court to grant
the Writ of Certiorari and set parameters for monetary
damages under the Rehabilitation Act. Specifically, it
requests this Court adopt the Eleventh Circuit’s definition
of “official.”
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for certiorari.
				Respectfully submitted,
John P. Danieu
Counsel of Record
Roach, Brown, Mccarthy
& Gruber P.C.
1920 Liberty Building
424 Main Street
Buffalo, New York 14202
(716) 852-0400
jdanieu@roachbrown.com
Counsel for Petitioner
November 18, 2019

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT, DATED AUGUST 19, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
AUGUST TERM 2018
NO. 18-1375
KATHLEEN BIONDO,
Plaintiff-Appellant,
v.
KALEIDA HEALTH, D/B/A BUFFALO
GENERAL MEDICAL CENTER,
Defendant-Appellee.
May 10, 2019, Argued
August 19, 2019, Decided
Before: JACOBS, LEVAL, Circuit Judges; FURMAN*,
District Judge.
Dennis Jacobs, Circuit Judge:

Judge Jesse M. Furman, of the United States District Court
for the Southern District of New York, sitting by designation.
*

2a
Appendix A
Kathleen Biondo, who is profoundly deaf, appeals from
a judgment dismissing on summary judgment her claim
that a hospital violated the Rehabilitation Act by failing to
provide an American Sign Language (“ASL”) interpreter.
We conclude that material issues of fact preclude summary
judgment.
In 2014, Biondo sought treatment at the Buffalo
General Medical Center (“BGMC”) for recurrent episodes
of fainting. She and her husband, who is not hearing
impaired, unsuccessfully requested an ASL interpreter
from hospital staff several times during her six-day
stay. Biondo has alleged violations of Section 504 of the
Rehabilitation Act (the “RA”), Title III of the Americans
with Disabilities Act (the “ADA”), the New York State
Human Rights Law (the “NYSHRL”), and the City of
Buffalo Antidiscrimination Law (the “CBAL”). The
United States District Court for the Western District
of New York (Geraci, J.) granted BGMC’s motion for
summary judgment as to the RA and ADA claims and
dismissed Biondo’s state and municipal law claims without
prejudice. Biondo appeals the dismissal of her RA claim
for damages, having abandoned her claims for injunctive
and declaratory relief pursuant to the RA and ADA.
This appeal concerns whether and when hospital staff
members may be considered to be acting as ‘officials’
or ‘policymakers’ of the hospital so that their conduct
may be attributed to the hospital and thereby establish
the plaintiff’s right to damages on the ground that the
defendant institution was ‘deliberately indifferent’ to a
violation of the RA. BGMC’s internal policies require the
provision of interpreter services in certain situations,

3a
Appendix A
including eliciting medical history, explaining treatment,
and giving discharge instructions. Because the record
contains evidence that the hospital staff at issue had
knowledge of the deprivation of Biondo’s right to an
interpreter, had the power to cure that violation, and
failed to cure it, summary judgment in favor of BGMC
was inappropriate.
BACKGROUND
The Hospital Stay. Biondo, who was born deaf, reads
at a fourth-to-fifth grade level, has unintelligible speech,
and cannot lipread well. She is, however, fluent in ASL.
Her husband has no training in ASL and communicates
with his wife in a combination of ASL and private signs
and signals.1 The Biondos also communicate, with some
limitations, via text message.
Biondo was admitted to BGMC on September 21,
2014, after she experienced several fainting episodes,
1. The district court found, citing no evidence, that Mr. Biondo
“knows ASL.” App’x 179. However, while the single linguistic
evaluation of Mr. Biondo in the record, performed by Dr. Judy
Shephard-Kegl, found that he has “good conversational signing
skills (Basic Interpersonal Communication Skills[)] (BICS) in
ASL,” it also found that he lacks “Cognitive Academic Language
Proficiency (CALP) in ASL,” and that “[h]is signing is not ASL”
but rather “a coding of English into signing.” Id. at 83. Moreover,
while the district court noted that Mr. Biondo has “had experience
interpreting for his wife at some of her past medical appointments,”
id. at 179 it did not acknowledge Shephard-Kegl’s conclusion that
he is “neither competent, nor qualified, to interpret for his wife in a
medical setting.” Id. at 83. The district court’s observations fail to

4a
Appendix A
tightness in her chest, and skipped heartbeats. Biondo’s
hospital admission documentation solicits “Preferred
Mode of Communication”; the form indicates “Written.”
Nevertheless, on the day of their arrival at BGMC, both
Biondos made requests for an ASL interpreter from
several hospital staff: the attendant working at the arrival
desk; nurses who escorted Biondo to a room and checked
her vital signs; nurses in the emergency room; and nurses
in the department to which Biondo was admitted. During
her six-day hospitalization, she communicated with staff
mostly by writing and through her husband (over his
objection) when he visited.
Biondo testified that she “kept requesting an
interpreter, and they . . . kept saying, ‘we will, we will, we
will.’” App’x 227. Biondo made these requests by pointing
at her left ear, by writing, and through her husband on
his visits. No interpreter was provided during Biondo’s
hospitalization. At some point, the Biondos gave up.
During her stay, Biondo provided and received
information on her condition and underwent medical
procedures, without an interpreter. The day after she
checked in, Dr. Oliva Balan obtained her medical history
with Mr. Biondo as interpreter. No interpreter was
present when Dr. Donald Switzer examined Biondo for a
cardiology consult or when Nurse Edwin Sewastynowicz
performed a vascular invasive pre-procedure record,
“resolv[e] all ambiguities and draw[] all reasonable factual inferences
in favor of the party against whom summary judgment is sought.”
Nick’s Garage, Inc. v. Progressive Cas. Ins. Co., 875 F.3d 107, 113
(2d Cir. 2017).

5a
Appendix A
which included explanations of treatments and an
opportunity for Biondo to ask questions. That same day,
Biondo underwent a tilt table test, in which the patient is
fixed to a table that is tilted until the patient faints. Before
the test began, Biondo again unsuccessfully asked for an
interpreter. Also before the test, Biondo was provided a
generic informed consent form with a description of the
procedure to be administered:
[Y]ou will be placed in an upright position and
your heart rate and blood pressure will be
monitored. Medication will be given to help
you relax. The oxygen in your blood will be
monitored.
S. App’x 38. The form also contained a page of authorizations
and waivers. Biondo testified that she signed the consent
form and underwent the test without understanding what
she was signing or what the test entailed. Biondo took the
test without her husband present, and testified that she
was scared, cried, and (at one point) asked Dr. Switzer if
she was going to die.
On September 24, the fourth day, Biondo was visited
in her room by Nurse Jennifer DiPasquale, the nurse
manager of the unit to which Biondo was admitted.
DiPasquale testified that she communicated with Biondo
via written notes and specifically asked Biondo whether
that was sufficient:
A. Whether I wrote it, stated it, I don’t
remember — I do remember posing the

6a
Appendix A
question, “Is this okay with you to communicate
like this?” And she said yes.
Q. Okay. So you have a specific memory of writing
to Ms. Biondo, “Is it okay to communicate with
you like this?”
A. I do.
App’x 204. Biondo does not specifically dispute this
account, though she disputes generally that she ever
stated a preference for written communication and claims
that she was forced to use writing for lack of options. On
September 25, Biondo met with a physical therapist, with
whom she communicated in writing; but Biondo testified
that she frequently pointed at words and shook her head
to indicate that she did not understand. When Biondo
was discharged on September 26, she communicated in
writing (without an interpreter) with Dr. Balan and with
a discharge planner who gave her discharge materials
that Biondo signed.
BGMC’s Interpreter Policy. BGMC has an “Interpreter/
Translation/Teletypewriter” policy (the “Interpreter
Policy”) that governs the “process and procedure for
identifying and assessing the language needs of Kaleida
Health [BGMC] patients.” S. App’x 163. It states:
Kaleida Health staff must inform the . . .
patient of his/her right to free . . . Deaf/Hearing
Impaired services. These services are provided
to the patient, family member and/or companion
at no cost.

7a
Appendix A
Id. The policy specifies that interpreter services “must
be provided” in several circumstances, including the
explanation of procedures, tests, treatment, treatment
options, discharge instructions, and determination of
a patient’s medical history. Id. As to responsibility for
implementation:
The department where the patient presents is
responsible for initiating interpreter services
as outlined in this policy. Any department
referring a . . . Deaf/Hearing Impaired patient
to another Kaleida department must notify the
receiving department of the patient’s identity,
the language s/he speaks, and approximate
arrival time.
Id. at 164. The policy advises that teletypewriter machines
are available, and includes the names and phone numbers
of three “Kaleida Health approved community vendor
organizations” that provide “community face-to-face
interpreters,” from which “Departments may request
an interpreter.” Id. These vendors include Deaf Adult
Services, for which the policy provides an additional
phone number in case “an emergent situation arises and
an interpreter . . . is needed after normal business hours.”
Id. at 165. As to interpreting services by others:
If the patient declines the offer of an interpreter
and requests that a family member, friend, or
other party, facilitate communication on his/her
behalf, such a person may be used only if the
staff member is reasonably comfortable that the
person will provide effective communication on

8a
Appendix A
the patient’s behalf. Staff must request that the
patient or legal representative sign a “Waiver
of Interpreter/Translator Services,” in the
patient’s primary language.
Id. No waiver was obtained from Biondo for the use of her
husband as an interpreter.
Procedural History. Biondo sued BGMC in the
Western District of New York on April 24, 2015, alleging
claims under the ADA, the RA, the NYSHRL, and the
CBAL, and seeking damages, attorney’s fees, injunctive
relief, and a declaratory judgment. Following the close
of discovery, the district court granted BGMC’s motion
for summary judgment. The district court dismissed the
RA damages claim because Biondo failed to establish
deliberate indifference by showing that a BGMC official
was aware of a potential violation of her rights, and failed
to respond adequately. The court found that DiPasquale
was the only doctor or nurse whose indifference could be
attributed to BGMC, but that the record did not support
a finding that DiPasquale had any knowledge of any such
violation. See Biondo v. Kaleida Health, No. 15-cv-362
(FPG) (LGF), 2018 U.S. Dist. LEXIS 60789, 2019 WL
1726533, at *6 (W.D.N.Y. Apr. 10, 2018) . The district court
also ruled that Biondo lacked standing for injunctive relief
because she failed to demonstrate an ongoing or likely
future injury. 2018 U.S. Dist. LEXIS 60789, [WL] at *7.
Her stated reluctance to use BGMC was in part premised
on its failure to supply ASL translation services. 2 Having
2. In concluding that Biondo had “not shown that she is likely
to visit Defendant in the future,” the district court relied in part on

9a
Appendix A
dismissed Biondo’s federal claims, the district court
declined to exercise supplemental jurisdiction over the
NYSHRL and CBAL claims. Id.
DISCUSSION
We review a grant of summary judgment de novo,
“construing the evidence in the light most favorable to the
nonmoving party and drawing all reasonable inferences
in his favor.” McElwee v. Cty. of Orange, 700 F.3d 635,
640 (2d Cir. 2012). A moving party is entitled to summary
judgment if the record reveals “no genuine dispute as to
any material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). A factual dispute
is genuine “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986).

Biondo’s deposition testimony “that she would only come back to
Defendant if she had ‘no choice.’” Biondo, 2018 U.S. Dist. LEXIS
60789, 2019 WL 1726533 at *7. The issue is not before us on appeal,
and the other grounds cited by the district court may have sufficed.
However, Biondo’s relevant deposition testimony, construed favorably
to her, was that she has some interest in BGMC’s services but is
reluctant to use them in light of BGMC’s inadequate interpretive
services. Biondo made precisely this argument in her opposition to
BGMC’s motion for summary judgment. It would be error to conclude
that a plaintiff lacks standing to seek an injunction solely because
the continuation of the violation for which she seeks redress will
dissuade her from using the infringing service. See Friends of the
Earth, Inc. v. Laidlaw Environment Services (TOC), Inc., 528 U.S.
167, 182, 120 S. Ct. 693, 145 L. Ed. 2d 610 (2000).

10a
Appendix A
The Rehabilitation Act
Section 504 of the RA prohibits a program or activity
receiving federal funds from excluding or discriminating
against persons based on disability. See 29 U.S.C.
§ 794(a). The implementing regulations provide additional
requirements. First, “[a] recipient hospital that provides
health services or benefits shall establish a procedure
for effective communication with persons with impaired
hearing for the purpose of providing emergency health
care.” 45 C.F.R. § 84.52(c). Second, “[a] recipient . . . that
employs fifteen or more persons shall provide appropriate
auxiliary aids to persons with impaired sensory, manual,
or speaking skills, where necessary to afford such
persons an equal opportunity to benefit from the service
in question.” 45 C.F.R. § 84.52(d)(1). While the RA “does
not ensure equal medical treatment,” it does require
“equal access to and equal participation in a patient’s own
treatment.” Loeffler v. Staten Island Univ. Hosp., 582 F.3d
268, 275 (2d Cir. 2009).
To establish a prima facie violation of the RA, Biondo
must show that she (1) is a “handicapped person” as defined
by the RA; (2) is “otherwise qualified” to participate in
the offered activity or benefit; (3) was excluded from such
participation solely by reason of her handicap; and (4) was
denied participation in a program that receives federal
funds. Id. Monetary damages may be recovered only
upon a showing of intentional discrimination. Intentional
discrimination does not require a showing of animosity or
ill will; it may be inferred when a qualifying “official,” id.
at 276, or “policymaker,” id. at 275 (quoting Bartlett v. New

11a
Appendix A
York State Bd. of Law Examiners, 156 F.3d 321, 331 (2d
Cir. 1998)), “acted with at least deliberate indifference to
the strong likelihood that a violation of federally protected
rights will result,” id. (quoting Bartlett, 156 F.3d at 331).
The standard for deliberate indifference is set out
in Loeffler, in which a panel of this Court looked to the
Supreme Court’s holding in the Title IX context that
damages are not recoverable unless
an official who at a minimum [1] has authority
to address the alleged discrimination and
to institute cor rective measures on the
recipient’s behalf [2] has actual knowledge of
discrimination in the recipient’s programs and
[3] fails adequately to respond.
Id. at 276 (quoting Gebser v. Lago Vista Indep. School
Dist., 524 U.S. 274, 290, 118 S. Ct. 1989, 141 L. Ed. 2d
277 (1998)). Loeffler explained that such indifference must
reflect a “deliberate choice among various alternatives”
and may not be inferred from mere “negligence or
bureaucratic inaction.” Id. (quoting Reynolds v. Giuliani,
506 F.3d 183, 193 (2d Cir. 2007)). 3

3. The facts of Loeffler have several points of similarity to
Biondo’s claim: a deaf patient undergoing heart surgery (and his
wife) unsuccessfully sought an interpreter; one request was made
to the surgeon. Id. at 272. Loeffler identified a question of fact as to
deliberate indifference because “persons at the Hospital had actual
knowledge of discrimination against the [plaintiff], had authority
to correct the discrimination, and failed to respond adequately.”
Id. at 276.

12a
Appendix A
Violation of the Rehabilitation Act. The district
court acknowledged that “[w]hether [Biondo’s] rights
were violated under the RA is likely a triable issue of
fact.” Biondo, 2018 U.S. Dist. LEXIS 60789, 2018 WL
1726533 at *5. BGMC does not dispute that Biondo was
handicapped under the RA and was otherwise qualified
to benefit from the hospital’s services, or that the hospital
receives federal funds. While the RA does not in terms
require the use of interpreters, a reasonable jury could
find, given the circumstances, that the failure to provide
one deprived Biondo of “an equal opportunity to benefit
from” the hospital’s services given her limitations with
written English, the length of her hospital stay, and
the procedures performed and information imparted
during her stay. 45 C.F.R. § 84.52(d)(1). BGMC does not
persuasively argue otherwise.
Deliberate Indifference. Having determined that the
RA may have been violated, we consider compensatory
damages, which are available only if a defendant was
deliberately indifferent to the potential violation of the
RA in that someone at the hospital “had actual knowledge
of discrimination against the [plaintiff], had authority
to correct the discrimination, and failed to respond
adequately.” Loeffler, 582 F.3d at 276.
During her hospitalization, both before and after
her interaction with Nurse DiPasquale--whose role we
need not address here--Biondo interacted with a number
of other doctors, nurses, and staff that she claims were
deliberately indifferent. BGMC argues that Biondo failed
to argue below that they are officials or policymakers

13a
Appendix A
whose indifference may be attributed to BGMC, and thus
waived the point. True, Biondo’s summary judgment briefs
did not specifically and expressly argue that BGMC staff
were officials. But BGMC did not address the issue either,
see Def.’s Mem. of Law at 11-15, No. 15-CV-362 (S.D.N.Y.
Jan. 1, 2017) No. 51; Def.’s Reply Mem. of Law at 7-10,
No. 15-CV-362 (S.D.N.Y. March 17, 2017) No. 55, and it
was BGMC’s obligation to show entitlement to summary
judgment, Fed. R. Civ. P. 56(a); see Nick’s Garage, 875
F.3d at 113-114. The issue of who was (or was not) an
official was hardly discussed at all: Biondo argues in one
sentence that DiPasquale was “in a position of ‘authority
to correct the discrimination.’” App’x 77 (quoting Loeffler,
582 F.3d at 276). Biondo’s failure to raise the argument
therefore reflects the parties’ focus on other issues. In
any event, Biondo did argue below that “BGMC staff,
doctors and nurses, knew Ms. Biondo was deaf and yet
failed to offer her a sign language interpreter,” App’x 76,
that “the conduct of BGMC’s staff amounts to deliberate
indifference,” id., and that the staff “failed to adhere to”
BGMC’s policies on interpreters, id.; see also id. at 78.
In these circumstances, we cannot agree that the issue
was waived.
Turning to the merits of the argument, the record
supports an inference that the staff had actual knowledge
of the potential RA violation. Biondo and her husband
repeatedly asked nurses for an interpreter when she first
arrived at the hospital; and Biondo continued to request
an interpreter and expressed her dissatisfaction with
written communication by, for example, pointing to words
she didn’t understand and shaking her head.

14a
Appendix A
It is uncontested that the hospital did not take action
in response to the Biondos’ requests. In addition, there
is evidence that the doctors and nurses at BGMC had
authority to call for an interpreter.
First, the Interpreter Policy provides that “[t]he
department where the patient presents is responsible
for initiating interpreter services,” S. App’x 164, and
requires a department referring a deaf patient to
notify the receiving department of the disability. That
leaves uncertain which employee in the department has
responsibility for ordering an interpreter. However, the
Policy lists phone numbers for contacting interpreter
services, indicating that authority to order an interpreter
is widely dispersed. Id. at 165.
Second, DiPasquale’s testimony further evidences
that doctors and nurses had the authority to provide an
interpreter for Biondo. DiPasquale testified that if a staff
member determined that a patient could not communicate
effectively, “they would have to go to the [Interpreter
Policy] and get an interpreter and inform the patient that-that we would provide that.” App’x 198-99. Asked “how
do staff go about securing a sign language interpreter
through vendors,” DiPasquale answered, “[e]mbedded in
the policy is a phone number for those services to contact.”
Id. at 194. She also testified that the Interpreter Policy is
accessible on BGMC’s intranet site, which employees can
access from any computer within the hospital. According
to DiPasquale, BGMC’s nurses and doctors were as fully
empowered to correct the violation as she was.

15a
Appendix A
Ta ken t oget her, t he Int er pret er Pol icy a nd
DiPasquale’s testimony create a dispute of fact as to
whether BGMC hospital staff--including its doctors and
nurses--had the authority to correct the deprivation of
Biondo’s rights by calling or requesting an interpreter
for her.
BGMC argues that none of the BGMC staff who
were arguably aware of the deprivation was a person
whose deliberate indifference could give rise to liability
for damages on behalf of BGMC. That is, none was an
“official,” Loeffler, 582 F.3d at 276 (quoting Gebser, 524 U.S.
at 290), or a “policymaker,” id. at 268 (quoting Bartlett,
156 F.3d at 331). BGMC emphasizes the Eleventh Circuit’s
definition of an official: “someone who enjoys substantial
supervisory authority within an organization’s chain of
command so that, when dealing with the complainant, the
official had complete discretion at a ‘key decision point’ in
the administrative process.” Liese v. Indian River County
Hospital District, 701 F.3d 334, 350 (11th Cir. 2012); see
also, id. (“[T]he purpose of the ‘official’ requirement is
to ensure that an entity is only liable for the deliberate
indifference of someone whose actions can fairly be said
to represent the actions of the organization.”).
We decline to adopt the Eleventh Circuit’s definition
insofar as it includes the requirement that a person
enjoy “substantial supervisory authority” within an
organization. The requirement is unspecific, and unhelpful
in the setting of a large, ramified institution where many
patients and visitors do not interact with a supervisor,
or know how to identify one, much less how to find one.

16a
Appendix A
In any event, it appears to be a sufficiently flexible
requirement that the Eleventh Circuit has applied it to
include nurses. See Sunderland v. Bethesda Hosp., Inc.,
686 Fed. Appx. 807, 816 (11th Cir. 2017) (finding a dispute
of fact as to whether hospital nurses exercised supervisory
authority when they decided what interpretative aids
are appropriate for a deaf patient, had authority to take
corrective measures, and often were the sole means by
which deaf patients accessed an interpretive aid).
On the other hand, we agree that an “official” or
“policymaker” must be someone who has some “discretion
at a ‘key decision point’ in the administrative process.”
Liese, 701 F.3d at 350. Given the hierarchy of a hospital, the
key decision point will vary with the decision to be made,
and the official or policymaker with discretion to make
the decision will vary accordingly. But that observation
is already embedded in our requirement that an official
have “authority to address the alleged discrimination and
to institute corrective measures on the recipient’s behalf.”
Loeffler, 582 F.3d at 276. We see no reason to disturb the
test set out in Loeffler.4
4. We do not imply that a hospital could absolve itself of liability
for damages by failing to empower staff members who have contact
with patients to cure potential violations of the RA, such as by failing
to empower front-line staff to procure a necessary interpreter.
Indeed, a hospital might be liable precisely because its policymakers
fail to put in place a policy that would reasonably enable a patient to
obtain the relief guaranteed by the RA by complaining to the staff
with whom she has contact. In that circumstance it might be argued
that the “policymaker acted with at least deliberate indifference to
the strong likelihood that a violation of federally protected rights will
result from the implementation of the [challenged] policy.” Loeffler,

17a
Appendix A
Finally, the district court ruled that the failure to
provide Biondo with an interpreter is attributable to
“negligence or bureaucratic inaction.” Biondo, 2018
U.S. Dist. LEXIS 60789, 2018 WL 1726533 at *6. That
may be so, and a jury may so find. But the finding is
not compelled. A jury might also find that certain staff
members observed Biondo struggling to communicate,
knew that she chiefly used ASL and lacked the education
to communicate adequately in writing, had the authority
to call for an ASL interpreter, and deliberately failed to
do so notwithstanding repeated requests. The facts of this
case are arguably worse than those of Loeffler, where at
least one hospital employee “made some efforts . . . to find
an interpreter.” 582 F.3d at 277.
For the foregoing reasons, the judgment of the district
court is VACATED and the case is REMANDED for
further proceedings consistent with this opinion.

582 F.3d at 275 (quoting Bartlett, 156 F.3d at 331). That argument is
especially strong in cases such as this where a regulation expressly
addresses a particular need, see 45 C.F.R. § 84.52(d)(1) (stating that
subject hospitals “shall provide appropriate auxiliary aids to persons
with impaired sensory, manual, or speaking skills”), effectively
putting hospital policymakers on notice that they must ensure the
hospital’s policies are reasonably capable of meeting that need.

18a
Appendixand
B order of the
Appendix b — decision
united states district court for the
western district of new york,
filed april 10, 2018
United States District Court
Western District of New York
Case # 15-CV-362-FPG-LGF
KATHLEEN BIONDO,
Plaintiff,
v.
KALEIDA HEALTH d/b/a/ BUFFALO
GENERAL MEDICAL CENTER,
Defendant.
April 10, 2018, Decided
April 10, 2018, Filed
DECISION AND ORDER
INTRODUCTION
Plaintiff Kathleen Biondo (“Plaintiff ”) brings
discrimination claims against Defendant Kaleida Health
d/b/a/ Buffalo General Medical Center (“Defendant”),
alleging that Defendant failed to provide her with sign
language interpretive services during a September 2126, 2014 stay at the hospital. ECF No. 1. Plaintiff seeks

19a
Appendix B
monetary, declaratory, and injunctive relief under Section
504 of the Rehabilitation Act, 29 U.S.C. § 794 (“RA”);
Title III of the Americans with Disabilities Act (“ADA”),
42 U.S.C. § 12181 et seq.; the New York State Human
Rights Law (“NYSHRL”), N.Y. Exec. L § 290 et seq.; and
the City of Buffalo Antidiscrimination Law, Buffalo Code
pt. II, § 154-9 et seq. Defendant has moved for summary
judgment. ECF No. 46. For the reasons stated below,
Defendant’s Motion for Summary Judgment is GRANTED
in its entirety.
BACKGROUND1
I. 	Plaintiff’s Experience at Buffalo General Medical
Center
Pla i nt i f f is a dea f i nd iv idua l who pr i ma r i ly
communicates in American Sign Language (“ASL”).
She can read and write English but claims to do so with
limited proficiency. On Sunday, September 21, 2014,
Plaintiff felt lightheaded and passed out on the floor of
her home. Her husband, Andrew Biondo, drove her to
Defendant’s emergency room (“ER”). Plaintiff and her
husband arrived at the ER around 10:30pm and requested
an ASL interpreter upon check-in. According to Plaintiff
and her husband, they both told nurses that Mr. Biondo
could not translate for Plaintiff because there would
“be misunderstandings.” K. Biondo Dep. Trans. 227:1415. Later in the evening, Dr. Michael Tinnesz assessed
1. The following facts are undisputed and are taken from
each party’s Statement of Material Facts (ECF Nos. 50, 57) unless
otherwise noted.

20a
Appendix B
Plaintiff and noted that Plaintiff “translates through
her husband at the bedside with sign language” and that
she was “awake, alert, and appropriate, answering all
questions . . .” ECF No. 50-1 at 58. The doctor noted that he
would send off routine labs and anticipated that Plaintiff
would be admitted to the hospital. Id.
At some point after Dr. Tinnesz’s assessment, Mr.
Biondo asked the nurse examining Plaintiff when the ASL
interpreter would arrive. The nurse informed Mr. Biondo
that “they couldn’t get a hold of anybody” because of the
late hour. A. Biondo Dep. Tr. 58: 4-6. Mr. Biondo continued
to follow up with the nurses about an ASL interpreter, but
an interpreter never came. Around 3:00am on Monday,
Plaintiff was admitted to the hospital as an inpatient. In
the absence of a professional interpreter, Mr. Biondo, who
knows ASL and had experience interpreting for his wife
at some of her past medical appointments, interpreted for
his wife but felt uncomfortable and at times ill-equipped
to fully convey to his wife everything that the doctors
were telling him.
Later that morning, Plaintiff underwent a table tilt
test, which helps diagnose patients who feel faint or
lightheaded. A nurse explained the test to Plaintiff before
administering it, and Plaintiff signed a consent form that
also explained the test in non-technical language. Plaintiff
passed out during the test and became distraught when
she woke up. The doctor comforted Plaintiff and told her
she had a vasovagal condition. He explained the diagnosis,
and a nurse gave her printed materials that further
explained vasovagal conditions.

21a
Appendix B
On Tuesday, Mr. Biondo returned to work while
Plaintiff stayed in the hospital. In Mr. Biondo’s absence,
Defendant’s staff communicated with Plaintiff through
written notes, because her medical records indicated
that written English was her preferred method of
communication and did not indicate that Plaintiff ever
requested an interpreter. ECF No. 50-1 at 134. Plaintiff
reported feeling light-headed, and a nurse gave her
medication that abated her condition. According to
Plaintiff, she kept asking the nurses for an interpreter, and
they kept saying “we will, we will, we will.” K. Biondo Dep.
Tr. 173: 6-7. When Mr. Biondo arrived after work, he again
asked a nurse about getting an interpreter. The nurse told
him that none were available. Mr. Biondo stopped asking
about interpreters out of frustration.
On Wednesday, Mr. Biondo again went to work while
Plaintiff stayed at the hospital. Plaintiff was transferred
to a new unit of the hospital. Nurse Manager Jennifer
DiPasquale, who oversaw the unit’s nursing practice,
introduced herself to Plaintiff and asked if she needed
anything. J. DiPasquale Dep. Trans. 91:2-5. Plaintiff
“started attempting to speak to” DiPasquale, at which
point DiPasquale noticed that Plaintiff was hearing
impaired and retrieved a pen and paper. Id. DiPasquale
wrote to Ms. Biondo, “Is it okay to communicate with you
like this?” Id. at 91:15. Plaintiff confirmed that it was, and
then Plaintiff continued writing notes back and forth with
DiPasquale about her treatment. DiPasquale did not offer
Plaintiff an ASL interpreter or ask if she had already been
offered one because Plaintiff indicated that note writing
was sufficient. Id. at 93:3-11.

22a
Appendix B
Later that day, a doctor requested an endocrinology
consult to rule out adrenal insufficiency as a cause of
Plaintiff’s symptoms. The doctor completing the consult
communicated with Plaintiff via paper and pen, but
Plaintiff said she was frustrated and did not understand
what was going on. Throughout the day, Plaintiff
repeatedly grew frustrated and would shake her head
when she did not understand something, but she did not
write any notes saying that she did not understand or
that written communication was insufficient. Mr. Biondo
briefly stopped by the hospital to visit Plaintiff after
work on Wednesday but then left to fill in for Plaintiff as
a volunteer at St. Mary’s School for the Deaf. He did not
speak with any doctors or ask anyone for an interpreter
that evening. A. P. Biondo Dep. Trans. 101-111.
Plaintiff remained in the hospital on Thursday,
September 25, 2014 and again wrote notes back and forth
with hospital staff. During a physical therapy session,
Plaintiff was “so upset” to communicate in writing
with the therapist, and she would point to words in the
therapist’s written notes and shake her head because
she did not understand them. Even when the therapist
clarified his writing with more simple terms that she could
understand, Plaintiff was still upset because “that [was]
not satisfactory to [her.]” K. Biondo Dep. Trans. 189:1-4.
Finally, on Friday, September 26, 2014, Plaintiff saw
her “morning doctor,” who told her that she could go
home. ECF No. 50-3 at 192. Plaintiff signed her discharge
instructions, which were written in lay-terms, and then
left the hospital in the afternoon.

23a
Appendix B
II. 	Defendant’s Interpreter Policy
Pursuant to Defendant’s policy, staff must inform
hearing impaired patients of their right to “free language
interpretation or Deaf/Hearing Impaired services.” ECF
No. 50-20 at 1. Interpreter services “must be provided
in all circumstances when a person is unable to speak,
read, write or understand the English language at a level
that permits him/her to interact effectively with health
providers to ensure effective communication in rendering
appropriate medical treatment.” Id. Additionally, if staff
use a family member or companion to interpret, they
should have the patient sign a waiver of interpreter
services. ECF No. 50-20 at 3.
According to DiPasquale, who investigated Plaintiff’s
hospital stay after she filed a formal complaint, staff
members did not follow Defendant’s interpretive service
policy because they did not notify Plaintiff of her right to
free interpretation services. J. DiPasquale Dep. Tr. 183.
DiPasquale also found that staff violated the policy by
failing to obtain a signed waiver of interpretive services
from Plaintiff. Id. at 184.
DISCUSSION
I. 	Legal Standard
Summary judgment is appropriate if “the pleadings,
the discovery and disclosure material on file, and any
affidavits show that there is no genuine issue as to any
material fact and that the movant is entitled to judgment

24a
Appendix B
as a matter of law.” Sousa v. Roque, 578 F.3d 164, 169 (2d
Cir. 2009) (quoting Fed. R. Civ. P. 56). A “genuine issue”
exists “if the evidence is such that a reasonable jury could
return a verdict for the non-moving party.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986). A fact is “material” if it “might
affect the outcome of the suit under governing law.” Id.
The function of the court is not “to weigh the evidence
and determine the truth of the matter but to determine
whether there is a genuine issue for trial.” Id. at 249.
The court resolves all ambiguities and draws all factual
inferences in favor of the nonmovant, but “only if there is
a ‘genuine’ dispute as to those facts.” Scott v. Harris, 550
U.S. 372, 380, 127 S. Ct. 1769, 167 L. Ed. 2d 686 (2007)
(citing Fed. R. Civ. P. 56).
To defeat summary judgment, therefore, nonmoving
parties “must do more than simply show that there is some
metaphysical doubt as to the material facts,” Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586,
106 S. Ct. 1348, 89 L. Ed. 2d 538 (1986), and they “may
not rely on conclusory allegations or unsubstantiated
speculation.” Fujitsu Ltd. v. Fed. Express Corp., 247 F.3d
423, 428 (2d Cir. 2001) (internal quotation marks omitted).
At the summary judgment stage, a nonmoving party
“must offer some hard evidence showing that its version
of the events is not wholly fanciful.” D’Amico v. N.Y.C., 132
F.3d 145, 149 (2d Cir.1998).
II. 	Rehabilitation Act Claim
Plaintiff raises a claim for monetary damages under
the RA. Section 504 of the RA provides that no “otherwise

25a
Appendix B
qualified individual with a disability in the United States ...
shall, solely by reason of her or his disability, be excluded
from the participation in, be denied the benefits of, or
be subjected to discrimination under any program or
activity receiving Federal financial assistance.” 29 U.S.C.
§ 794(a). The RA’s implementing regulations require
hospitals receiving federal funds to “establish a procedure
for effective communication with persons with impaired
hearing for the purpose of providing emergency health
care.” 45 C.F.R. § 84.52(c). Additionally, “[a] recipient
... that employs fifteen or more persons shall provide
appropriate auxiliary aids to persons with impaired
sensory, manual, or speaking skills, where necessary to
afford such persons an equal opportunity to benefit from
the service in question.” Id. at § 84.52(d)(1). Aids are
“appropriate” if they ensure “effective communication
with individuals with disabilities” and may include
interpreters, note takers, and “written materials.” 28
C.F.R. § 36.303.
Patients with disabilities are not entitled to the
auxiliary aid of their choice unless it is necessary to
ensure effective communication. See, e.g., Bravin v. Mount
Sinai Med. Ctr., 186 F.R.D. 293, 302 (S.D.N.Y. 1999)
(“[T]he RA does not require public entities to provide
ASL interpreters to deaf individuals in every instance.”).
While Department of Justice regulations advise public
accommodations to “consult with individuals with
disabilities whenever possible to determine what type of
auxiliary aid is needed to ensure effective communication,
. . . the ultimate decision as to what measures to take rests
with the public accommodation,” so long as the resulting
communication is effective. 28 C.F.R. § 36.303(c)(1)(ii).

26a
Appendix B
These auxiliary aids “are not required to produce the
identical result or level of achievement for handicapped
and nonhandicapped persons, but must afford handicapped
persons equal opportunity to obtain the same result,
to gain the same benefit, or to reach the same level of
achievement, in the most integrated setting appropriate
to the person’s needs.” 45 C.F.R. § 84.4(b)(2). In other
words, the RA does “not ensure equal medical treatment,
but does require equal access to and equal participation
in a patient’s own treatment.” Loeffler v. Staten Island
Univ. Hosp., 582 F. 3d 268, 275 (2d Cir. 2009). Therefore,
to determine if an entity discriminated against a disabled
patient, the factfinder must assess “whether the auxiliary
aid that a hospital provided to its hearing-impaired patient
gave that patient an equal opportunity to benefit from the
hospital’s treatment.” Liese v. Indian River Cnty. Hosp.
Dist., 701 F.3d 334, 343 (11th Cir. 2012).
To receive monetary damages under the RA, a
plaintiff must show that (1) the healthcare entity violated
her rights under the RA, and (2) that the entity did so
with discriminatory intent. Bartlett v. N.Y. State Bd. of
Law Exam’rs, 156 F.3d 321, 331 (2d Cir. 1998). To prove
discriminatory intent in the Second Circuit, the plaintiff
need not show that the defendant possessed “personal
animosity or ill will.” Loeffler, 582 F.3d at 275. Instead, it
is sufficient for the plaintiff to show that a “policymaker
acted with at least deliberate indifference to the strong
likelihood that a violation of federal protected rights will
result from the implementation of the [challenged] policy
. . . [or] custom.” Id. at 275 (quoting Bartlett, 156 F.3d at
331).

27a
Appendix B
The Second Circuit has never explicitly defined
deliberate indifference in the context of the RA, but it has
stated that “it is at least instructive that [the Supreme
Court in Gebser v. Lago Vista Indep. School Dist.]
described the requirements of deliberate indifference as
. . . [A]n official who at minimum has authority to address
the alleged discrimination and to institute corrective
measure on the recipient’s behalf has actual knowledge
of discrimination in the recipient’s programs and fails
adequately to respond.” Loeffler, 582 F.3d 268 (citing
Gebser v. Lago Indep. School Dist., 524 U.S. 274, 290, 118
S. Ct. 1989, 141 L. Ed. 2d 277 (1998)). The Second Circuit in
Loeffler also stressed that, in “a separate context [outside
of the RA], we have also said that deliberate indifference
must be a ‘deliberate choice, rather than negligence of
bureaucratic inaction.’” Id. at 276.
In Loeffler, the court denied summary judgment
against a hospital that failed to provide an ASL interpreter
for a patient undergoing heart surgery and his wife. The
couple requested sign language interpreters from the
defendant hospital’s Patient Representative Department
and from some nurses. Id. 272. They also requested an
interpreter from a doctor, who “laughed . . . off” the
request. Id. The couple’s children instead had to translate
for their parents 2 and missed several days of school.
In holding that a jury could find that the hospital was
deliberately indifferent to the patient’s rights, the court
emphasized that “Dr. Sithian—arguably a policymaker—
2. The hospital even gave the children pagers so that they could
be available to translate for their parents at any hour. Loeffler, 582
F.3d at 281.

28a
Appendix B
dismissed [the patient’s] demand for an interpreter [by]
‘just kind of laugh[ing] it off, and played it as a joke.’” Id.
at 276. The court also stressed that, while the hospital had
a “policy in place to provide interpreters . . . the obvious
shortcomings in the policy” and “the alleged apathetic
response of Dr. Sithian, notwithstanding his authority to
correct the discrimination, could lead a reasonable jury
to conclude that the Hospital was deliberately indifferent;
and its indifference to the Loefflers’ rights may have been
so pervasive as to amount to a choice.” Id. at 277.
Despite Loeffler’s emphasis on “policymakers” or
“officials,” some district courts in the Second Circuit
have not acknowledged that the deliberate indifference
standard requires that a policymaker or official be onnotice of potential violations of a patient’s rights. See,
e.g., Viera v. City of N.Y., No. 15 Civ. 5430 (PGG), 2017
U.S. Dist. LEXIS 113978, 2017 WL 3130332 (S.D.N.Y.
July 21, 2017) (discussing the deliberate indifference
standard without mentioning policymakers or officials,
and analyzing hospital staff’s knowledge of patient’s rights
without assessing whether those staff members were
officials). While Loeffler did not discuss the policymaker
requirement at length, the Eleventh Circuit in Liese more
thoroughly explained the importance of that requirement,
using the same Supreme Court case law that the Second
Circuit relied on in Loeffler.
The court in Liese explained that Congress passed
the RA under its Spending Clause power. Liese, 701 F.3d
at 348. Accordingly, Congress wished to “avoid the use
of Federal funds to support discriminatory practices”

29a
Appendix B
but also wanted to ensure that “the defendant-entity had
actual notice that it was in violation of [the RA] and had an
opportunity to rectify the violation.” Id. See also Gebser,
524 U.S. at 275 (“It is sensible to assume that Congress
did not envision a recipient’s liability in damages where
the recipient was unaware of the discrimination.”) For
the defendant entity itself to have actual notice that it
was violating the RA, it is not sufficient to show that any
particular employee—no matter where they stood in the
organization’s employee hierarchy—knew that a patient’s
RA rights were being violated. Otherwise, “there would
be a risk that the recipient [entity] would be liable in
damages not for its own official decision but instead for
its employees’ independent actions.” Id. at 291.
Instead, a “natural reading of Gebser reveals that
the purpose of the ‘official’ requirement is to ensure that
an entity is only liable for the deliberate indifference of
someone whose actions can fairly be said to represent
the actions of the organization.” Liese, 701 F.3d at 350.
In Liese, the court held that a doctor who knew that a
patient was requesting an interpreter and ignored her was
an official under Gebser because, unlike a nurse, he had
“supervisory authority,” could “overrule a nurse’s decision
to not provide an auxiliary aid,” and there was no evidence
that his “decisions were subject to reversal.” Id. at 350.
Plaintiff asserts that DiPasquale is the type of official
that Gebser contemplated because, “as the nurse manager
of the floor in which Ms. Biondo was an admitted patient,”
she “was clearly in a position of ‘authority to correct
the discrimination, and failed to respond adequately.’”

30a
Appendix B
ECF No. 58 at 12. Plaintiff’s argument, however, ignores
the first component of the Gebser test—that the official
have “actual knowledge of discrimination.” See Gebser,
524 U.S. at 276. Even if DiPasquale is an official under
Gebser, there is no record evidence that DiPasquale knew
that Defendant violated Plaintiff’s rights under the RA. 3
Plaintiff specifically told DiPasquale that it was acceptable
to communicate with her using pen and paper, and the
two proceeded to communicate about Plaintiff’s medical
care and her medications that way. Additionally, Plaintiff’s
medical records indicated that her preferred method of
communication was written English and did not indicate
that she requested an interpreter. DiPasquale simply had
no reason to believe that Plaintiff could not effectively
communicate with hospital staff.
Plaintiff and her husband both testified during their
depositions that they asked a few unnamed nurses for an
interpreter, but there is no evidence that those nurses were
officials—nor does Plaintiff argue that they were. There is
also no evidence to support that any other potential official
knew that Plaintiff could not effectively communicate with
hospital staff. Assuming that Plaintiff and her husband
actually asked hospital staff for interpreters, which the
Court must do at the motion for summary judgment
3. Whether Plaintiff’s rights were violated under the RA is
likely a triable issue of fact. See Chisolm v. McManimon, 275 F. 3d
315, 327 (3d Cir. 2001) (“Generally, the effectiveness of auxiliary
aids and/or services is a question of fact precluding summary
judgment.”). The Court need not elaborate on this point, however,
because Plaintiff has not shown that an official was aware of any
discrimination against her.

31a
Appendix B
stage, Defendant’s policy on interpreters failed Plaintiff.
Dipasquale’s investigation revealed as much. The record
indicates, however, that Defendant’s failure was, at most,
negligence or bureaucratic inaction. Without an official’s
knowing failure to provide Plaintiff with a necessary
auxiliary aid, Defendant is not liable for discrimination
under the RA. Accordingly, Plaintiff’s claim for damages
under the RA is DISMISSED.
III.	Injunctive and Declaratory Relief
Plaintiff seeks declaratory and injunctive relief under
the RA and Title III of the ADA.4 Defendant argues that
Plaintiff lacks standing to obtain such relief because she
“cannot show that she is likely to require treatment at
Buffalo General in the future, or, that she would again
be denied interpreting services if she were to require
treatment at the hospital.” ECF No. 51 at 6.
To establish standing, a Plaintiff must first establish
that she suffered an “injury in fact,” which the Supreme
Court defines as “an invasion of a legally-protected
interest which is (a) concrete and particularized, and (b)
actual or imminent, not conjectural or hypothetical.” Id.
Lujan v. Def. of Wildlife, 504 U.S. 555, 560, 112 S. Ct.
2130, 119 L. Ed. 2d 351 (1992). For a plaintiff seeking
declaratory or injunctive relief, allegations of past injury
alone do not suffice to establish an injury in fact. See
Levin v. Harleston, 966 F.2d 85, 90 (2d Cir. 1992); Golden
4. Title III of the ADA does not provide for damages. See
Kreisler v. Second Ave. Diner Corp., 731 F.3d 184, 186 (2d Cir. 2013).

32a
Appendix B
v. Zwickler, 394 U.S. 103, 109-10, 89 S. Ct. 956, 22 L. Ed.
2d 113 (1969). Instead, the plaintiff must show a “real
and immediate threat that the injury will be continued or
repeated.” Farmland Dairies v. McGuire, 789 F. Supp.
1243, 1250 (S.D.N.Y. 1992).
Courts in the Second Circuit have analyzed this
standing requirement in cases similar to the one at bar.
In Schroedel v. N.Y. Univ. Med. Ctr., 885 F. Supp. 594
(S.D.N.Y. 1995), a deaf patient sued a hospital for failing to
provide her with sign language interpreters during a visit
to the hospital’s emergency room. The court ruled that
the plaintiff had “not established a real and immediate
threat of repeated injury sufficient to confer standing
for injunctive relief.” Id. at 599. Because the hospital was
not the nearest medical center to the plaintiff’s home or
office and she previously visited the hospital on only one
other occasion, the court dismissed the possibility of the
plaintiff returning to the hospital as “mere speculation.”
Id. Similarly, in Freydel v. New York Hosp., No. 97 Civ.
7926 (SHS), 2000 U.S. Dist. LEXIS 9, 2000 WL 10264
(S.D.N.Y. Jan. 4, 2000), a deaf patient who sued a hospital
that failed to provide her with ASL interpreters argued
that she had standing to pursue injunctive relief because
“her local community hospital [was] part of a medical
network which [included defendant hospital] as a tertiary
care center, so that future referrals to [defendant hospital]
were possible.” 2000 U.S. Dist. LEXIS 9, [WL] at *3.
The court rejected the plaintiff’s argument, because one
“visit to a hospital [did] not establish that [the plaintiff
was] likely to again find herself seeking treatment at”
the defendant hospital and that plaintiff “failed to provide

33a
Appendix B
evidence of a likely future encounter between herself and
defendant.” Id.
Courts have also rejected plaintiffs’ standing
arguments in cases where the plaintiff had a more
extensive history with the defendant hospital. In Naiman
v. N.Y. Univ, No. 95 Civ. 6469 (LMM), 1997 U.S. Dist.
LEXIS 6616, 1997WL 249970 (S.D.N.Y. May 13, 1997), the
court held that a deaf plaintiff who visited the defendant
hospital four times did not plead a sufficient likelihood
of future harm to establish standing. In granting the
plaintiff leave to amend his complaint, the court advised
him that he must show a real or immediate threat “that
he will require the services of the [defendant hospital] in
the future” and that he should show why the defendant
hospital, “as opposed to some other hospital,” is the facility
that he would visit in the future. 1997 U.S. Dist. LEXIS
6616, [WL] at *14.
Here, Plaintiff has not shown that she is likely to visit
Defendant in the future. In her deposition, she repeatedly
stated that she would only come back to Defendant if
she had “no choice.” K. Biondo Dep. Trans. 231-232.
Furthermore, in her 30 years of living in the area, Plaintiff
has visited Defendant for medical treatment twice but has
visited other hospitals at least 31 times for scheduled and
emergency medical care. ECF No. 51 at 10. Additionally,
several other hospitals are closer to Plaintiff’s home and
office than Defendant. Id. Any assumption that Plaintiff
will return to Defendant is at best speculative and falls
short of the “real and immediate threat” standard
necessary to establish standing. Accordingly, Plaintiff’s

34a
Appendix B
claims for declaratory and injunctive relief under the ADA
and the RA are DISMISSED.
IV.	NYHRL and City of Buffalo Antidiscrimination
Law claims
Because the Court dismissed the federal claims in
this case, it declines to exercise supplemental jurisdiction
over the NYHRL and Buffalo Antidiscrimination Law
claims. See 28 U.S.C. § 1367(c)(3); United Mine Workers of
America v. Gibbs, 383 U.S. 715, 726, 86 S. Ct. 1130, 16 L.
Ed. 2d 218 (1966) (“Needless decisions of state law should
be avoided both as a matter of comity and to promote
justice between the parties . . .”).
CONCLUSION
For the reasons stated above, Defendant’s Motion for
Summary Judgment (ECF No. 46) is GRANTED and this
case is DISMISSED WITH PREJUDICE. The Clerk of
the Court is directed to enter judgment and close this case.
IT IS SO ORDERED.
Dated: 	April 10, 2018
Rochester, New York
/s/ Frank P. Geraci, Jr.		
HON. FRANK P. GERACI, JR.
Chief Judge
United States District Court

35a
Appendix
Appendix C —
UnitedC States Code
Annotated, Title 29, Labor 29, U.S.C.A. § 705
United States Code Annotated
Title 29. Labor
Chapter 16. Vocational Rehabilitation and Other
Rehabilitation Services (Refs & Annos) General
Provisions (Refs & Annos)
29 U.S.C.A. § 705
§ 705. Definitions
(20) Individual with a disability
(A) In general
Except as otherwise provided in subparagraph
(B), the term “individual with a disability” means any
individual who—
(i) has a physical or mental impairment which
for such individual constitutes or results in a
substantial impediment to employment; and
(ii) can benefit in terms of an employment
outcome from vocational rehabilitation services
provided pursuant to subchapter I, III, or VI.

36a
Appendix C
(B) Certain programs; limitations on major life
activities
Subject to subparagraphs (C), (D), (E), and (F),
the term “individual with a disability” means, for
purposes of sections 701, 711, and 712 of this title
and subchapters II, IV, V, and VII of this chapter,
any person who has a disability as defined in section
12102 of Title 42.
(C) Rights and advocacy provisions
(i) In general; exclusion of individuals
engaging in drug use
For purposes of subchapter V, the term
“individual with a disability” does not include
an individual who is currently engaging in the
illegal use of drugs, when a covered entity acts
on the basis of such use.
(ii) Exception for individuals no longer
engaging in drug use
Nothing in clause (i) shall be construed to
exclude as an individual with a disability an
individual who—
(I) has successfully completed a
sup er v i sed d r ug rehabi l it at ion
program and is no longer engaging
in the illegal use of drugs, or has

37a
Appendix C
other w ise been rehabilitated
successfully and is no longer engaging
in such use;
(II) is participating in a supervised
rehabilitation program and is no
longer engaging in such use; or
(III) is erroneously regarded as
engaging in such use, but is not
engaging in such use;
except that it shall not be a
violation of this chapter for
a covered entity to adopt or
administer reasonable policies
or procedures, including but not
limited to drug testing, designed
to ensure that an individual
described in subclause (I) or
(II) is no longer engaging in the
illegal use of drugs.
(iii) Exclusion for certain services
Notwithstanding clause (i), for purposes of
programs and activities providing health
ser v ic e s a nd ser v ic e s pr ov ide d u nder
subchapters I, II, and III, an individual shall
not be excluded from the benefits of such
programs or activities on the basis of his or
her current illegal use of drugs if he or she is
otherwise entitled to such services.

38a
Appendix C
(iv) Disciplinary action
For purposes of programs and activities
providing educational services, local educational
agencies may take disciplinary action pertaining
to the use or possession of illegal drugs or alcohol
against any student who is an individual with a
disability and who currently is engaging in the
illegal use of drugs or in the use of alcohol to
the same extent that such disciplinary action is
taken against students who are not individuals
with disabilities. Furthermore, the due process
procedures at section 104.36 of title 34, Code
of Federal Regulations (or any corresponding
similar regulation or ruling) shall not apply to
such disciplinary actions.
(v) Employment; exclusion of alcoholics
For purposes of sections 793 and 794 of this title
as such sections relate to employment, the term
“individual with a disability” does not include
any individual who is an alcoholic whose current
use of alcohol prevents such individual from
performing the duties of the job in question or
whose employment, by reason of such current
alcohol abuse, would constitute a direct threat
to property or the safety of others.

39a
Appendix C
(D) Employment; exclusion of individuals with
certain diseases or infections
For the purposes of sections 793 and 794 of this title,
as such sections relate to employment, such term does
not include an individual who has a currently contagious
disease or infection and who, by reason of such disease
or infection, would constitute a direct threat to the health
or safety of other individuals or who, by reason of the
currently contagious disease or infection, is unable to
perform the duties of the job.
(E) Rights provisions; exclusion of individuals on
basis of homosexuality or bisexuality
For the purposes of sections 791, 793, and 794 of this
title—
(i) for pu r p o s e s of t he appl ic at ion of
subparagraph (B) to such sections, the term
“impairment” does not include homosexuality
or bisexuality; and
(ii) therefore the term “individual with a
disability” does not include an individual on the
basis of homosexuality or bisexuality.
(F) Rights provisions; exclusion of individuals on
basis of certain disorders
For the purposes of sections 791, 793, and 794 of this
title, the term “individual with a disability” does not
include an individual on the basis of—

40a
Appendix C
(i) transvestism, transsexualism, pedophilia,
exhibitionism, voyeurism, gender identity
d i sorder s not r e su lt i ng f r om phy sic a l
impairments, or other sexual behavior disorders;
(ii) compulsive gambling, kleptomania, or
pyromania; or
(iii) psychoactive substance use disorders
resulting from current illegal use of drugs.
(G) Individuals with disabilities
The term “individuals with disabilities” means more
than one individual with a disability.

41a
D statutory
Appendix d —Appendix
relevant
provisions
29 U.S.C. § 794
§ 794. Nondiscrimination under Federal
grants and programs
(a) Promulgation of rules and regulations
No otherwise qualified individual with a disability in the
United States, as defined in section 705(20) of this title,
shall, solely by reason of her or his disability, be excluded
from the participation in, be denied the benefits of, or
be subjected to discrimination under any program or
activity receiving Federal financial assistance or under
any program or activity conducted by any Executive
agency or by the United States Postal Service. The head
of each such agency shall promulgate such regulations
as may be necessary to carry out the amendments to
this section made by the Rehabilitation, Comprehensive
Services, and Developmental Disabilities Act of 1978.
Copies of any proposed regulation shall be submitted
to appropriate authorizing committees of the Congress,
and such regulation may take effect no earlier than the
thirtieth day after the date on which such regulation is
so submitted to such committees.
(b) “Program or activity” defined
For the purposes of this section, the term “program or
activity” means all of the operations of--

42a
Appendix D
(1)(A) a department, agency, special purpose district,
or other instrumentality of a State or of a local
government; or
(B) the entity of such State or local government
that distributes such assistance and each such
department or agency (and each other State or
local government entity) to which the assistance
is extended, in the case of assistance to a State or
local government;
(2)(A) a college, university, or other postsecondary
institution, or a public system of higher education; or
(B) a local educational agency (as defined in section
7801 of Title 20), system of career and technical
education, or other school system;
(3)(A) an entire corporation, partnership, or other
private organization, or an entire sole proprietorship-(i) if assistance is extended to such corporation,
partnership, private organization, or sole
proprietorship as a whole; or
(ii) which is principally engaged in the business
of providing education, health care, housing,
social services, or parks and recreation; or
(B) the enti re plant or other compa rable,
geographically separate facility to which Federal
financial assistance is extended, in the case

43a
Appendix D
of any other corporation, partnership, private
organization, or sole proprietorship; or
(4) any other entity which is established by two or more
of the entities described in paragraph (1), (2), or (3);
any part of which is extended Federal financial assistance.
(c) Significant structural alterations by small providers
Small providers are not required by subsection (a) to make
significant structural alterations to their existing facilities
for the purpose of assuring program accessibility, if
alternative means of providing the services are available.
The terms used in this subsection shall be construed with
reference to the regulations existing on March 22, 1988.
(d) Standards used in determining violation of section
The standards used to determine whether this section
has been violated in a complaint alleging employment
discrimination under this section shall be the standards
applied under title I of the Americans with Disabilities
Act of 1990 (42 U.S.C. 12111 et seq.) and the provisions of
sections 501 through 504, and 510, of the Americans with
Disabilities Act of 1990 (42 U.S.C. 12201 to 12204 and
12210), as such sections relate to employment.

44a
Appendix D
29 U.S.C. § 794a
§ 794a. Remedies and attorney fees
(a)(1) The remedies, procedures, and rights set forth
in section 717 of the Civil Rights Act of 1964 (42 U.S.C.
2000e-16), including the application of sections 706(f)
through 706(k) (42 U.S.C. 2000e-5(f) through (k)) (and
the application of section 706(e)(3) (42 U.S.C. 2000e-5(e)
(3)) to claims of discrimination in compensation), shall be
available, with respect to any complaint under section 791
of this title, to any employee or applicant for employment
aggrieved by the final disposition of such complaint, or
by the failure to take final action on such complaint. In
fashioning an equitable or affirmative action remedy
under such section, a court may take into account the
reasonableness of the cost of any necessary work place
accommodation, and the availability of alternatives
therefor or other appropriate relief in order to achieve
an equitable and appropriate remedy.
(2) The remedies, procedures, and rights set forth
in title VI of the Civil Rights Act of 1964 (42 U.S.C.
2000d et seq.) (and in subsection (e)(3) of section 706
of such Act (42 U.S.C. 2000e-5), applied to claims of
discrimination in compensation) shall be available to
any person aggrieved by any act or failure to act by
any recipient of Federal assistance or Federal provider
of such assistance under section 794 of this title.

45a
Appendix D
(b) In any action or proceeding to enforce or charge a
violation of a provision of this subchapter, the court, in
its discretion, may allow the prevailing party, other than
the United States, a reasonable attorney’s fee as part of
the costs.

